.

NO.

IN THE SUPREME COURT OF THE UNITED STATES

JOSUE PORTILLO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
To the Second Circuit Court of Appeals

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Joseph W. Ryan, Jr.
JOSEPH W. RYAN, JR., P.C
Melville Law Center
225 Old Country Road
Melville, New York 11747
Tel. (516) 629-4896
joeryanlaw@earthlink.net
Attorneys for Petitioner

,

/
^

NOW COMES, Josue Portillo, Petitioner in the above-entitled matter, by and
through his attorney of record, Joseph W. Ryan, Jr., and moves this Honorable
Court to allow him to proceed in this matter in forma pauperis, and would show the
Court the following:
I.
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States,
Petitioner, Josue Portillo, asks leave to file the attached Petition for Writ of
Certiorari without prepayment of costs and to proceed in forma pauperis.
II.
On June 24, 2019, undersigned counsel was appointed by the Second Circuit
Court of Appeals to represent Petitioner in his appeal, pursuant to the Criminal
Justice Act, 18 U.S.C. ยง3006A.
WHEREFORE PREMISES CONSIDERED, Petition requests based on the
foregoing, that the Court grant his motion to proceed in forma pauperis, and waive
all costs regarding the same.
Dated: January 12, 2021

JOSEPH W.

'

pc

By:
JOSEPH W. RYAN, JR. (2408)
Attornef/s for Petitioner
JOSUE PORTILLO
Melville Law Center
225 Old Country Road
Melville, New York 11747
Tel. (516) 629-4896
joeryanlaw@earthlink.net

